MARCH 25, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




   REVIEW OF NASA’S PROGRESS ON RETIRING THE
             SPACE SHUTTLE PROGRAM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-012 (ASSIGNMENT NO. A-09-012-00)
Final report released by:



       /signed/
Paul K. Martin
Inspector General




Acronyms

AMS          Alpha Magnetic Spectrometer
FY           Fiscal Year
GAO          Government Accountability Office
ISS          International Space Station
JICB         Joint Integration Control Board
NPR          NASA Procedural Requirements
NSTS         National Space Transportation System
OIG          Office of Inspector General
STS          Space Transportation System
T&R          Transition and Retirement
TCB          Transition Control Board
ULF          Utilization Logistics Flight


                                                    REPORT NO. IG-10-012
MARCH 25, 2010




                                                                             OVERVIEW

           REVIEW OF NASA’S PROGRESS ON RETIRING THE
                     SPACE SHUTTLE PROGRAM

                                                                               The Issue

  In January 2004, the “Vision for U.S. Space Exploration” established a new direction for
  the Nation’s space program. As part of the Vision, the President directed NASA to use
  the Space Shuttle primarily to complete construction and outfitting of the International
  Space Station (ISS) before retiring the Shuttle by the end of 2010. A key challenge for
  NASA in achieving this objective is maintaining the capabilities required to fly the Space
  Shuttle safely while transitioning real and personal property, critical skills, and related
  capabilities to support other NASA priorities, including the next generation of human
  space flight systems.

  The objective of our audit was to evaluate NASA’s plans for completing the remaining
  Space Shuttle flights to support the ISS and retiring the Shuttle Program. To answer our
  objective, we analyzed the Space Shuttle flight rates and schedules to determine whether
  the planned manifest appears reasonable and achievable. In addition, we reviewed
  NASA’s plans for transition and retirement (T&R) activities after the Shuttle Program’s
  retirement. Details of the audit’s scope and methodology are in Appendix A.

                                                                                  Results

  Since early 2004, NASA has maintained Space Shuttle flight manifests designed to
  sustain and complete construction of the ISS and retire the Shuttle Program by
  September 30, 2010. NASA has made steady progress in completing the scheduled
  flights and is working on a timetable to launch the remaining four flights and retire the
  Program by September 2010. However, our calculations and Agency internal reviews
  indicate that it will most likely take NASA until early 2011 to complete the last of the
  four remaining flights. Nevertheless, NASA continues working toward the September
  2010 Shuttle retirement date because it could potentially provide the Agency the
  opportunity to redirect millions of dollars toward other priority programs by limiting the
  need to fund Shuttle operations at $200 million a month in fiscal year (FY) 2011.

  Further, while NASA has developed clear plans for managing the Shuttle Program’s
  T&R activities through FY 2010, it has not finalized the organization and governance
  structure for T&R activities in FY 2011 and beyond.




REPORT NO. IG-10-012
                                                                                         OVERVIEW



     Completing the Remaining Shuttle Flights by the End of FY 2010 Is Unlikely.
     NASA continues to fund and plan for completion of the four remaining Space Shuttle
     flights by September 30, 2010. According to Shuttle Program managers, the Agency
     chose to keep this schedule and not plan for flights in FY 2011 because the September
     2010 date is still manageable. Since that time, the President’s FY 2011 budget request
     was released and it includes an additional $600 million to support the Shuttle Program
     through December 2010.

     Based on calculations by the Office of Inspector General, historical flight rates, and
     internal NASA evaluations, NASA is not likely to meet its September 2010 timetable,
     and it will most likely take until the second quarter of FY 2011 to complete the last of the
     planned Space Shuttle flights. For example, a Shuttle Program analysis of flight rates
     concluded that the estimated completion date for the last of the eight flights remaining as
     of June 2009 would be between November 2010 and March 2011, with February 2011 as
     the most realistic estimate. In addition, a September 2009 analysis of launch probabilities
     conducted by a consultant for the Space Operations Mission Directorate found that the
     probability for completing the six Shuttle flights remaining at that time by September 30,
     2010, ranged from 5 percent to 15 percent. The same analysis found that the probability
     of completing those flights by the end of December 2010 ranged from 70 percent to
     85 percent.

     Our calculations show that the chance of completing the remaining flights by the end of
     FY 2010 is improving. Specifically, with eight flights remaining our analysis concluded
     that the final Shuttle flight would likely launch in June 2011. However, given that the
     last four Shuttle flights all launched within the schedule margins, our analysis now
     predicts that the last of the four remaining Shuttle flights will launch in January 2011.

     According to Shuttle Program managers, their philosophy is to manage and work toward
     accomplishing the demanding launch schedule until the remaining schedule margin for
     accommodating launch delays is depleted. The managers estimate that accomplishing the
     work required to complete the remaining Space Shuttle flights by September 2010 will
     require up to $54 million in personnel overtime costs. However, they also estimate that
     the Agency will have to spend about $200 million for Shuttle Program operations for
     every month that they need to sustain Shuttle operations in FY 2011. Although the
     managers are holding to the end-of-FY 2010 retirement date and expect to expend up to
     $54 million in overtime costs, they recognize that they may still have to extend Shuttle
     operations into FY 2011 to complete the schedule due to uncontrollable events.
     Nevertheless, the managers stated that setting September 2010 as a goal can reduce the
     amount of time that they will need to sustain Shuttle operations in FY 2011 and
     potentially provide the Agency the opportunity to redirect millions of dollars toward
     other priority programs by limiting the need to continue Shuttle operations at
     $200 million a month.

     NASA Has Not Finalized Post-2010 Transition and Retirement Plans. NASA and the
     Shuttle Program have clearly defined plans and an organization and governance structure
     for T&R activities through FY 2010. However, the Agency decided to delay finalizing


ii                                                                          REPORT NO. IG-10-012
OVERVIEW



  plans for T&R activities in FY 2011 and beyond in order to concentrate on completing
  the remaining Space Shuttle flights by September 2010. Space Operations Mission
  Directorate management stated that this decision allowed the Shuttle Program’s
  workforce to focus on the launch schedule and the existing T&R organization structure
  without being distracted by a “parallel” organization that Shuttle Program managers
  thought would distract the workforce and potentially affect flight safety.

  Although NASA senior management has not finalized the post-2010 plans, NASA
  expects to implement a two-phase approach for the Shuttle Program’s retirement. Phase I
  (FY 2011 and FY 2012) will focus on asset “end-state development,” which is technical
  work to provide the asset in the required condition for disposal. Phase II (FY 2013
  through FY 2020) will focus on contract closeouts and any remaining asset disposal.
  As of March 2010, the organization and governance structure for executing T&R post-
  FY 2010 was still under development, and the exact organizational responsibility for
  disposition of Program property after the last Space Shuttle mission had not yet been
  determined. Finalizing these matters prior to completion of the Space Shuttle Program is
  critical given the Program’s scope and the Agency’s estimate that T&R activities for
  FY 2011 through FY 2015 will cost $460 million.

                                                                Management Action

  We made no recommendations concerning NASA’s plans to maintain the current Space
  Shuttle launch schedule given the Agency’s goal of attempting to minimize operating
  costs for the Shuttle in FY 2011.

  With respect to T&R activities, we recommended that the Associate Administrator for
  Space Operations finalize the post-FY 2010 organization structure and plans for T&R
  activities by July 31, 2010, to facilitate effective implementation of the full scope of T&R
  activities after the last Space Shuttle flight.

  In response to our March 12, 2010, draft of this report, the Associate Administrator for
  Space Operations concurred with our recommendation and stated that NASA is
  committed to the effective management of Shuttle T&R activities. The Space Shuttle
  Transition Manager prepared a draft proposal that establishes roles, responsibilities, and
  interfaces; describes the management approach and organization structure; and proposes
  personnel required to manage the final phases of Space Shuttle Program asset
  dispositions. The Transition Manager expects to obtain approval from the Transition
  Control Board in April 2010 and finalize the plan by July 31, 2010. The estimated
  completion date is September 1, 2010. See Appendix B for the full text of management’s
  comments.

  We consider the Associate Administrator’s proposed actions to be responsive. The
  recommendation is resolved and will be closed upon completion and verification of
  management’s corrective actions.



REPORT NO. IG-10-012                                                                             iii
MARCH 25, 2010




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objective ___________________________________________ 3

  RESULTS
      Finding A: Completing the Remaining Shuttle Flights by the
                  End of FY 2010 Is Unlikely ____________________ 4
      Finding B: NASA Needs to Finalize Shuttle Post-2010
                  Transition and Retirement Plans ______________ 12

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls ____________________________ 19
      Prior Coverage ______________________________________ 19

  APPENDIX B
      Management Comments ______________________________ 20

  APPENDIX C
      Report Distribution ___________________________________ 21




REPORT NO. IG-10-012
MARCH 25, 2010




                                                                                      INTRODUCTION


Background

  The President’s “Vision for U.S. Space Exploration,” announced in January 2004,
  established a new direction for the Nation’s space program. As part of the Vision,
  President Bush directed NASA to use the Space Shuttle primarily to complete
  construction of the International Space Station (ISS) and then retire the Shuttle by 2010.
  In addition to the President’s announcement, in 2005 Congress directed the NASA
  Administrator to develop a plan describing how NASA would implement the President’s
  Vision. 1 NASA’s Plan addressed how it would ensure that the Space Shuttle operates
  safely through its last flight; the planned number of flights before its retirement; other
  means that may be used to ferry crew and cargo to and from the ISS; the intended
  purpose of lunar missions; and the extent to which the new Crew Exploration Vehicle
  would allow for emergency crew escape. Subsequently in 2008, Congress mandated that
  NASA add two utilization logistics flights (ULFs) 2 to the schedule (designated as ULF4
  and ULF5) and take all steps necessary to schedule a third flight (designated as ULF6)
  prior to retiring the Shuttle in 2010. On February 1, 2010, the President released the
  proposed fiscal year (FY) 2011 budget for NASA. The proposed budget provides
  $600 million to complete the remaining Space Shuttle flights even if the schedule slips
  into FY 2011. The budget also supports extension of the ISS until at least 2020.

  The Space Shuttle Program comprises four major projects 3 and more than 1.2 million
  pieces of hardware and equipment. The Space Shuttle is the only U.S. human-rated space
  transportation system. NASA’s Space Operations Mission Directorate is responsible for
  the safe and effective operation of the Space Shuttle; the lead manager for the Shuttle
  Program is located at Johnson Space Center. The Program employs more than 2,000 civil
  service and 15,000 contractor personnel, with the majority of the civil service workforce
  located at Johnson, Kennedy Space Center, and Marshall Space Flight Center.

  NASA began dismantling the Shuttle Program during FY 2009, and prime contractors for
  the Space Shuttle began staff reductions in February 2009. Over the past year,
  contractors have closed down Shuttle production lines, hardware testing operations, and
  workstations.



  1
      Pursuant to the Authorization Act of 2005, NASA provided Congress with the “Human Space Flight
      Transition Plan,” July 2006.
  2
      ULFs are Shuttle flights dedicated to delivering spare parts and supplies to the ISS.
  3
      The four projects are the Orbiter, the Space Shuttle Main Engine, the Reusable Solid Rocket Booster, and
      the External Tank.



REPORT NO. IG-10-012                                                                                             1
                                                                                                    INTRODUCTION



    As of March 2010, four Space Shuttle flights are planned between April and September
    2010. The flights will complete the construction of the ISS and provide supplies for
    ISS’s sustainment through 2015. Upon completion of those flights, NASA will transition
    and retire the Shuttle Program.

    The ISS Program is an international partnership of the United States, Russia, Canada,
    Japan, and the members of the European Space Agency. 4 Completion of the ISS is
    dependent on the Space Shuttle’s ability to provide the required assembly hardware,
    spare parts, and supplies necessary for the ISS to operate through at least 2015.
    Consequently, completion of the ISS is contingent on the remaining four planned Shuttle
    flights: one assembly flight and three ULFs. The remaining assembly flight is scheduled
    to deliver hardware, science payloads, an ammonia tank assembly, and a multi-purpose
    logistics module. The three ULFs will deliver three carriers containing spare parts such
    as a radiator, 5 science experiments, the Russian Mini-Research Module, an integrated
    cargo carrier, the Alpha Magnetic Spectrometer (AMS), 6 and a permanent logistics
    module for supply storage.

    Previous Audit Work on Transition and Retirement. The NASA Office of Inspector
    General (OIG) and the Government Accountability Office (GAO) have previously
    examined NASA’s planning for Space Shuttle Program transition and retirement (T&R)
    activities. In a 2007 report, 7 we found that NASA’s transition plans did not
    comprehensively address certain elements that we believed were essential to management
    and oversight of an activity of the transition’s scope and importance.

    We made four recommendations in our 2007 report intended to ensure that NASA
    developed the necessary framework, processes, and supporting infrastructure to manage
    and oversee the transition. Among them were recommendations that the Agency develop
    guidance within the NASA Procedural Requirements (NPR) 7120 series that clearly
    defines and establishes requirements for managing closeout and transition for programs
    of the Space Shuttle Program’s magnitude, revise the Human Space Flight Transition
    Plan to comply with applicable project management guidelines, and finalize and
    implement the Plan. NASA management took appropriate action to address all of the
    recommendations and, in August 2008, addressed transition planning through 2010 and
    established a structure for decision making to develop post-2010 T&R activities.

    4
        European Space Agency members include Austria, Belgium, the Czech Republic, Denmark, Finland,
        France, Germany, Greece, Ireland, Italy, Luxembourg, the Netherlands, Norway, Portugal, Spain,
        Sweden, Switzerland, and the United Kingdom.
    5
        The radiator is a major sub-assembly of the ISS Heat Rejection Subsystem and consists of two radiator
        wings containing three radiators each. The radiator rejects heat from the ISS ammonia loop, and the
        panels cool the warm ammonia via radiant interchange with space. The radiator’s size and mass is such
        that the Space Shuttle is the only vehicle that can deliver it to the ISS.
    6
        While the AMS is not necessary for completing and supporting the ISS, the NASA Authorization Act of
        2008 requires the Administrator to take all necessary steps to make one additional Space Shuttle flight to
        deliver the AMS to the ISS prior to retiring the Space Shuttle.
    7
        NASA OIG, “NASA’s Plans for Space Shuttle Transition Could Be Improved by Following Project
        Management Guidelines” (IG-07-005, January 29, 2007).



2                                                                                          REPORT NO. IG-10-012
INTRODUCTION



  A 2007 GAO report 8 found that while NASA had developed plans and processes aimed
  at managing parts suppliers, several factors could impact NASA’s ability to effectively
  implement those plans and processes. GAO recommended that NASA develop cost
  estimates for T&R activities post-2010 so that NASA could request the necessary funding
  in FY 2011 and beyond. In a 2008 report, 9 GAO stated that NASA faced challenges in
  defining the scope and cost of Shuttle Program T&R activities. GAO recommended that
  NASA clearly identify all direct and indirect Shuttle Program T&R costs, noting that the
  Agency did not know what Program property it needed to retain or the full cost of the
  transition effort. In addition, GAO found that the Agency had not developed final plans
  and cost estimates for protecting Space Shuttle artifacts and making them available for
  public display.


Objective

  The audit’s overall objective was to evaluate the status of NASA’s efforts to complete the
  remaining Space Shuttle flights to support the ISS and retire the Shuttle Program. See
  Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior audit coverage.




  8
      GAO, “NASA Supplier Base: Challenges Exist in Transitioning from the Space Shuttle Program to the
      Next Generation of Human Space Flight Systems” (GAO-07-940, July 25, 2007).
  9
      GAO, “NASA: Agency Faces Challenges Defining Scope and Costs of Space Shuttle Transition and
      Retirement” (GAO-08-1096, September 30, 2008).



REPORT NO. IG-10-012                                                                                      3
                                                                                        RESULTS




                                                 FINDING A: COMPLETING THE
                                                 REMAINING SHUTTLE FLIGHTS
                                                     BY THE END OF FY 2010
                                                                IS UNLIKELY

           Since the President announced his “Vision for U.S. Space Exploration” in January
           2004, NASA has planned a Space Shuttle flight manifest designed to complete the
           ISS, support its sustainment, and retire the Shuttle Program by September 30, 2010.
           NASA has made steady progress in achieving these objectives, and only four Shuttle
           flights remained as of March 2010. However, both internal and external analyses
           indicate that NASA will not complete its final planned Shuttle flight until the second
           quarter of FY 2011. NASA continues working toward the September 2010
           retirement date because it could potentially provide the Agency the opportunity to
           redirect millions of dollars toward other priority programs by limiting the need to
           continue Shuttle operations at $200 million a month in FY 2011.


Presidential and Congressional Mandates

    Since 2004, the President and Congress have directed NASA to take a series of actions
    leading up to the cessation of the Space Shuttle Program. A summary of these directives
    follows.

    President’s Vision. As part of his January 2004 “Vision for U.S. Space Exploration,”
    the President directed NASA to return the Space Shuttle to flight as soon as practical
    after the 2003 Columbia Shuttle disaster, use the Space Shuttle primarily to complete the
    ISS, and retire the Shuttle by 2010.

    NASA Authorization Act of 2005. The Act directed the NASA Administrator to use
    Shuttle Program personnel, capabilities, assets, and infrastructure in developing NASA’s
    future launch vehicles. The Act also required the Administrator to transmit to Congress a
    plan describing how NASA would proceed with its future human space flight programs
    and the retirement of the Shuttle Program. The plan was to include the projected number
    of flights the Space Shuttle would make before retirement and how NASA would deploy
    Shuttle Program resources to ensure that the Space Shuttle operates as safely as possible
    through its final flight. In addition, the Act required that the Administrator ensure that
    the ISS had sufficient on-orbit capabilities to sustain it through periods when the Space
    Shuttle or the next generation of space vehicles were unavailable.

    NASA Authorization Act of 2008. This Act mandated that NASA add two additional
    Space Shuttle flights to its planned flight schedule. The Act also required the
    Administrator to take all steps necessary to make an additional Space Shuttle flight to



4                                                                         REPORT NO. IG-10-012
RESULTS



  deliver the Alpha Magnetic Spectrometer (AMS) to the ISS prior to the Shuttle
  Program’s retirement.

  If NASA determines that it will be unable to launch the AMS flight before the end of
  December 2010, or that the flight would result in significantly increased costs or
  unacceptable safety risks, the Act requires the Administrator to notify Congress and
  remove the AMS flight from the schedule. After such notification, however, Congress or
  the President may reauthorize the AMS flight by certifying that it is in the national
  interest. AMS flight (STS-134) is currently scheduled to launch on July 29, 2010.

  President’s Proposed FY 2011 Budget. On February 1, 2010, the President released the
  FY 2011 proposed budget for NASA. The budget requests $600 million to complete the
  remaining Space Shuttle flights if flights are delayed into FY 2011. The budget also
  supports extension of the ISS to at least 2020 and cancels the Constellation Program,
  which was NASA’s next generation human space flight program.


NASA and OIG Analyses Suggest That Completing the Space
 Shuttle Flight Schedule Will Take Until Early 2011

  NASA is working toward a September 30, 2010, completion date for the remaining four
  Shuttle flights. However, historical flight rates and flight constraints suggest that NASA
  will not complete its planned flights until the second quarter of FY 2011 at the earliest, as
  shown in Table 1.

                     Table 1. Projected Date of Final Space Shuttle Launch

                       Basis of Projection                                 Date

              Historical Flight Rates                         February 2011

              Manifest Assessment Simulation Tool             March 2011*

              NASA OIG Analysis                               January 2011

           * Source: September 2009 calculations by the NASA consultant.



  Historical Flight Rate. In June 2009, NASA was planning to launch eight Space Shuttle
  missions over a 15-month period (June 2009 through September 2010). For the purpose
  of comparison, Shuttle Program managers evaluated historical flight rates for two other
  similar time periods. From June 2006 through November 2007, eight planned Shuttle
  launches took 20 months to complete. From June 2007 through October 2008, seven
  planned launches took 21 months to complete. Based on these rates, Shuttle Program
  managers estimated that the eight Space Shuttle flights remaining as of June 2009 would



REPORT NO. IG-10-012                                                                              5
                                                                                                                  RESULTS



    be completed between November 2010 and March 2011, with February 2011 as the most
    realistic estimate.

    Manifest Assessment Simulation Tool. The Space Operations Mission Directorate uses
    the Manifest Assessment Simulation Tool 10 to provide additional analyses of potential
    Shuttle flight schedules. The Assessment Tool provides a range of probabilities based on
    “likely case” and “worst case” scenarios. 11 In March 2009, the probability of completing
    the nine flights remaining on the March 17, 2009, manifest by the end of December 2010
    was 78 percent (likely case) and 60 percent (worst case) according to the Assessment
    Tool. In September 2009, the Assessment Tool calculated the probability of completing
    the six flights remaining by September 2010, December 2010, or March 2011, as shown
    in Table 2.

              Table 2. Probability Results of the Manifest Assessment Simulation Tool
                                   (95 percent confidence interval)

              Completion Date of Final                   Likely Case                  Worst Case
                  Shuttle Flight

             September 2010                               15 percent                    5 percent

             December 2010                                85 percent                   70 percent

             March 2011                                   95 percent                   90 percent
            Source: September 2009 calculations by the NASA consultant.

    NASA OIG. We estimated that the Shuttle Program will complete its four remaining
    Space Shuttle flights in January 2011. Our projection is based on the 88-day average for
    the number of days between Space Shuttle flights launched from July 2006 through
    February 2010. To complete the flights by NASA’s current target date of September 30,
    2010, the Shuttle Program would need to reduce the average number of days between
    Space Shuttle flights to 55 – 33 days less than NASA’s historical average since July
    2006, and 60 days less than the Shuttle Program’s average since the Columbia disaster.
    The smaller schedule margin between Space Shuttle flights in 2010 leaves little room for
    launch delays. Any delay will likely affect subsequent flights, and completing the flight
    manifest by September 30, 2010, becomes correspondingly more unlikely.

    However, there is still a chance, although small, of achieving the September 2010
    retirement date if the Shuttles continue to launch on time or within the small schedule
    10
         The Manifest Assessment Simulation Tool provides a quantitative estimate on when Space Shuttle
         missions are likely to take place based on planned flight dates.
    11
         Likely case and worst case scenarios are distinguished by the probability of negative events occurring.
         For example, the Space Shuttle landing at Dryden Flight Research Center instead of Kennedy Space
         Center is considered a negative event, as it would add 10 days to the ground processing time required to
         prepare the Shuttle for its next flight. The probability of this event in a likely case scenario is 1 in 9; its
         probability in a worst case scenario is 1 in 5.



6                                                                                               REPORT NO. IG-10-012
RESULTS



  margins. Our analysis indicates that the probability of meeting the demanding schedule
  improved by 5 months (from June 2011 to January 2011) when the last four flights
  launched within their launch window margins. We performed our analysis based on
  average number of days between Shuttle launches when there were eight flights
  remaining; seven flights remaining; six flights remaining; five flights remaining; and,
  finally, four flights remaining. Each time the Shuttle launched within the window
  margin, the average days between launches decreased and our projection for when the
  last flight would launch improved.

  Table 3 below shows the results of our analysis with eight, seven, six, five, and four
  flights remaining.

               Table 3. NASA OIG Projection for Final Shuttle Flight

                                   Historical Days           Projected Last
          Flights Remaining
                                  Between Launches           Shuttle Flight

       Eight                              95                June 2011

       Seven                              92                April 2011

       Six                                89                February 2011

       Five                               88                January 2011

       Four                               88                January 2011



Factors Affecting the Space Shuttle Launch Schedule

  Additional factors in maintaining the flight schedule include how long one launch can be
  delayed without impacting the next launch (schedule margin), how long it takes to
  prepare a Shuttle between flights (ground processing margin), and launch windows.

  Schedule Margin. The schedule margin between flights is the length of time the Shuttle
  Program can delay a launch before causing a delay in the next scheduled Space Shuttle
  flight. With every launch delay, the schedule margins become smaller. Based on the
  March 2010 launch schedule, the margins between subsequent launch windows ranged
  from zero to 3 weeks for the four remaining flights (see Table 4). For example, STS-131
  has no schedule margin, and any delay in its planned April 5, 2010, launch would cause a
  delay for the next launch (STS-132, scheduled for May 14, 2010). Similarly, a delay
  longer than 3 weeks by STS-132 would require recalculation of the launch schedule for at
  least one of the remaining Shuttle flights into FY 2011.




REPORT NO. IG-10-012                                                                         7
                                                                                                           RESULTS




                          Table 4. Space Shuttle Launch Schedule as of March 2010

            Designation          Assigned Shuttle              Launch Date               Schedule Margin*

          STS-131                  Discovery                April 5, 2010                      0 weeks

          STS-132/ULF4             Atlantis                 May 14, 2010                       3 weeks

          STS-134/ULF6             Endeavour                July 29, 2010                      2 weeks

          STS-133/ULF5             Discovery                September 16, 2010
         *Length of time the Space Shuttle Program can delay a launch before causing a delay in the next
          scheduled flight.
          Source: Space Shuttle Program planning documents as of June 2009 and March 2010.

    Ground Processing Margin. The ground processing margin is the time it takes to ready
    a Space Shuttle for its next flight. In addition to the small schedule margins between
    flights, the Shuttle Program must also manage the margin for ground processing between
    flights of the same Space Shuttle. During 2009, the Program’s schedules allowed for
    delays of up to 4 weeks. For example, Space Shuttle Discovery was scheduled for flights
    in August 2009 and March 2010. When the August Discovery launch was delayed by
    3 weeks, the Shuttle Program still had 1 week of ground processing margin to prepare
    Discovery for its March launch, which has subsequently been delayed to April 5, 2010.
    As a result, there is no ground margin between the remaining two flights for Discovery
    (April 5 and September 16), so a delay of Discovery’s April 5, 2010, launch would result
    in Discovery’s planned September 16 launch slipping into FY 2011.

    Launch Windows. The best possible time to launch the Space Shuttle, known as the
    launch window, is dependent on a number of constraints, such as Solar Beta Angle, 12
    launch pad availability, weather conditions, and the presence of other space vehicles at
    the ISS (such as the Russian Soyuz or Japanese H-II Transfer Vehicle).

    NASA’s current position that the four remaining Space Shuttle launches could be
    completed by September 30, 2010, was partly based on an increase in FY 2010 of the
    number of available flight days, or launch opportunities. Table 5 shows the planned
    available flight days by fiscal year as of June 2009.




    12
         The Shuttle cannot be docked to the ISS during Solar Beta Angle, a recurring condition that happens
         when the angle between the ISS orbit and the Sun produces unacceptably high temperatures.



8                                                                                         REPORT NO. IG-10-012
RESULTS



                Table 5. Planned Number of Available Space Shuttle Flight Days
                                      (by fiscal year)
                       Fiscal Year                       Number of Available Days
                          2006                                           92
                          2007                                       215
                          2008                                       196
                          2009                                       180
                          2010                                       265
          Source: Space Shuttle Program planning documents, June 2009.

  As shown in Table 5, NASA was planning on a significant increase in launch
  opportunities in FY 2010 (85 more days than in FY 2009) and planned the four remaining
  Shuttle launches in FY 2010 accordingly. The planned increase in launch opportunities
  for the Space Shuttle resulted from a projected reduction in the number of Russian Soyuz
  flights to the ISS. However, that reduction did not occur as projected. Consequently,
  NASA expects that the number of available flight days for the Space Shuttle in FY 2010
  will be about the same as FY 2009, further limiting the available launch windows and
  reducing margins.


Management Decision to Maintain the Current Schedule

  To date, NASA managers are still working on a timetable that has the final Space Shuttle
  mission taking place in September 2010. Shuttle Program management calculates the
  time it takes to ready the Shuttle for flight using no margin for processing and then
  schedules the Shuttle for launch in the next available launch window. By so doing,
  schedule margin is inevitably established by the time between the planned end of
  processing and the launch window. Although the internal and external analyses conclude
  that NASA will not meet this timetable, there is still a chance to obtain the
  September 2010 retirement date if the Space Shuttles launch on time or within the small
  margins. The last four Shuttles launched within the allowed margins and did not delay
  subsequent launches, thereby improving NASA’s chances to complete the flights on
  schedule. For example, our original analysis with eight flights remaining showed that the
  last Shuttle would not launch until June 2011. Because the last four launches occurred
  within their window margins, our analysis now predicts the last launch date as
  January 2011. To realize the September 2010 completion date, however, the Shuttle
  Program will need to continue launching within its very tight schedule margins.

  Shuttle Program personnel stated that their schedule management philosophy is to hold to
  the established retirement date for planning purposes, with the expectation that delays
  could force flights into FY 2011. Program personnel stated that based on their
  experience, by managing the Shuttle’s launch schedule for completion by September 30,
  2010, and not revising it until the schedule margin is depleted, the more realistic


REPORT NO. IG-10-012                                                                          9
                                                                                          RESULTS



     completion date of February 2011 will be met and a final Shuttle flight by
     December 2010 could well be achieved.


Schedule and ISS Sustainment

     In an attempt to preserve the planned September 2010 completion of Space Shuttle
     flights, the Shuttle Program will spend as much as $54 million in overtime in FY 2010 to
     expedite Shuttle processing. The timely completion of the Space Shuttle manifest could
     potentially provide the Agency the opportunity to redirect millions of dollars toward
     other priority programs by limiting the need to continue Shuttle operations at
     $200 million a month and in addition, help ensure the sustainment of ISS operations
     through 2015 and beyond.

     Overtime Costs to Maintain Schedule. In support of NASA’s current Space Shuttle
     launch schedule, the Agency intends to spend up to $54 million in personnel overtime
     costs to facilitate completion of the remaining flights by what all agree is a challenging
     launch schedule. When we discussed this issue with Shuttle Program personnel, they
     stated that the $54 million investment for overtime will help ensure the most expeditious
     completion of the Space Shuttle flight schedule, even if all launches are not completed by
     the end of September 2010.

     By holding to the end-of-FY 2010 retirement date and spending up to $54 million in
     overtime to achieve that goal, Shuttle Program managers expect to complete the
     scheduled flights months earlier than would be possible if a new flight manifest were
     created based on a December 2010 retirement date. Because operation costs for the
     Shuttle Program run about $200 million a month, completing the remaining flights just
     1 week earlier would about equal the Agency’s planned overtime investment.

     ISS Assembly and Sustainment. The final stages of ISS assembly and sustainment
     depend on the success of the remaining Space Shuttle flights. Without these flights, the
     likelihood of the ISS operating as intended through FY 2015 or beyond is significantly
     reduced. The remaining Shuttle flights are scheduled to deliver internal and external
     orbital replacement units for the ISS, units that are critical to support a six-person ISS
     crew and reduce the need for continued maintenance on existing equipment. While the
     ISS can rely on its international partners’ vehicles – such as the Russian Soyuz; Progress,
     the European Automated Transfer Vehicle; and the Japanese H-II Transfer Vehicle – to
     deliver spare parts and supplies, only the Space Shuttle is capable of delivering certain
     larger items to the ISS. One such item is a spare radiator that STS-133 is scheduled to
     deliver to the ISS in September 2010.




10                                                                          REPORT NO. IG-10-012
RESULTS



Management Action

  In light of the Agency’s attempts to reduce operating costs for the Shuttle in FY 2011, we
  are not making a recommendation that NASA adjust its current Space Shuttle flight
  manifest.




REPORT NO. IG-10-012                                                                           11
                                                                                                    RESULTS




                                                           FINDING B: NASA NEEDS TO
                                                              FINALIZE SHUTTLE POST-
                                                               2010 TRANSITION AND
                                                                   RETIREMENT PLANS

                NASA had clearly defined plans for Space Shuttle transition and retirement (T&R)
                activities through FY 2010, but has not finalized the organization and governance
                structure for T&R activities after FY 2010. Although NASA senior management has
                yet to finalize the post-2010 plans, NASA managers said they expect to implement a
                two-phase approach for the Shuttle Program’s retirement. Phase I (FY 2011 and
                FY 2012) will focus on asset “end-state development,” which is technical work to
                provide the asset in the required condition for disposal. Phase II (FY 2013 through
                FY 2020) will focus on contract closeouts and any remaining asset disposal. NASA
                deferred finalizing the planning for Shuttle Program T&R activities to concentrate on
                completing Space Shuttle flights by September 2010, but without finalized plans the
                Agency lacks the necessary framework, processes, and supporting infrastructure to
                manage the estimated $460 million that will be needed for T&R activities beginning
                in FY 2011.


Management of Space Shuttle Program Retirement

     In a 2007 report, the OIG addressed NASA’s efforts to plan for and manage the Shuttle
     Program’s T&R activities. 13 The audit found that the Agency’s transition plan did not
     address critical issues, such as who will manage facilities and property disposition or who
     will make transition decisions after the planned 2010 retirement. We recommended that
     NASA establish guidance for managing the transition after 2010 because many of the
     critical property and equipment dispositions will not occur until 2011. In addition, we
     reported that to effectively manage and successfully complete the Space Shuttle
     transition, NASA should define the roles and responsibilities for transition activities after
     the Shuttle Program ends and its managers no longer provide the lead role in the
     transition.

     NASA management concurred with our finding and agreed to define requirements for a
     final post-2010 Shuttle transition workforce, management structure, and organization.
     The transition management plan developed in August 2008 addressed transition planning
     through 2010 and established a structure for decision making to develop post-2010 T&R
     activities that involved joint planning with NASA Mission Directorates, Centers, program
     offices, mission support offices, and associated industry contractors.


     13
          NASA OIG, “NASA’s Plans for Space Shuttle Transition Could Be Improved by Following Project
          Management Guidelines” (IG-07-005, January 29, 2007).



12                                                                                   REPORT NO. IG-10-012
RESULTS



Agency Lacks Post-Shuttle Program T&R Organization and Plans

  NASA defines Space Shuttle T&R activities as the tasks required to identify all Shuttle
  Program capabilities and either transfer these capabilities to another program or
  institution or retire the Shuttle Program’s capabilities that are no longer needed. Since
  our 2007 audit of NASA’s transition plans for the Space Shuttle, the Agency has made
  significant progress in managing the Shuttle’s retirement while continuing to operate and
  fly the Shuttle. The current plans use the Shuttle Program’s management structure and
  decision-making boards for T&R activities, and the Agency relies heavily on Shuttle
  Program management to budget T&R costs within the Shuttle line item. In addition, the
  Agency is studying alternatives for the post-Shuttle T&R organization to ensure assets
  are in the proper condition for disposition. However, as of March 2010, the Agency still
  did not have a clearly defined organization structure or plans for T&R activities after the
  Shuttle’s planned September 2010 retirement date, even though that date was less than
  6 months away.

  Pre-Shuttle Retirement Activities. Over the past several years, NASA and Shuttle
  Program managers began planning for the Program’s retirement by implementing a series
  of transition plans:

      •   National Space Transportation System 07700, Volume XX, “Space Shuttle
          Transition and Retirement Requirements,” February 28, 2007, establishes the
          program-level requirements for the Shuttle Program’s T&R activities.

      •   “Space Shuttle Program Transition Management Plan,” May 9, 2007, describes
          the organization structure, management approach, processes, products, and tools
          to manage the transition and retirement of the Shuttle Program’s capabilities. In
          addition, this plan defines how the Shuttle Program is organizing and managing
          implementation of its end-of-program T&R and align it with the Human Space
          Flight Transition Plan.

      •   “NASA Transition Management Plan,” August 2008, provides the strategic
          foundation for the management and execution of transition efforts. This plan
          contains the Agency-level goals, objectives, roles, and responsibilities necessary
          to execute the transition efforts.

  In addition to these transition plans, the Agency established a working group and control
  boards between 2006 and 2009 to help ensure that Shuttle Program T&R activities are
  implemented effectively. Descriptions of the working group and boards follow.

      •   The Headquarters Transition Working Group performs cross-functional
          coordination across Agency organizations contributing to or impacted by the
          retirement of the Shuttle Program, the transition of assets and capabilities to
          Constellation, or the disposition and disposal of assets and capabilities.




REPORT NO. IG-10-012                                                                            13
                                                                                                           RESULTS



            •    The Human Space Flight Transition Control Board (TCB) comprises the Space
                 Operations and Exploration Systems Mission Directorates, the Institutions and
                 Management Office, the Safety and Mission Assurance Office, and the Office of
                 the Chief Engineer. The TCB coordinates transition planning, as well as reviews
                 and approves Shuttle Program, ISS, and Constellation Program plans and
                 decisions concerning Shuttle Program resources and how assets are to be
                 transitioned. The TCB charter expires September 30, 2010.

            •    The Joint Integration Control Board (JICB) provides integrated strategic direction
                 and decision making; determines integrated priorities and risk mitigation
                 strategies; defines budgets, schedules, and Agency-level human space flight
                 development and operation requirements; serves as the Directorate-level inter-
                 organizational forum; and ensures that lessons learned are transferred into the
                 Constellation Program’s development and operations. The JICB charter also
                 expires September 30, 2010.

            •    The Infrastructure Transition Control Board, chaired by the Assistant
                 Administrator, Office of Infrastructure, has authority to institute infrastructure
                 transition policies and procedures, evaluate progress, and direct actions necessary
                 to achieve the Agency’s transition goals. The charter for the Infrastructure
                 Transition Control Board expires September 30, 2012.

     Shuttle Program managers also said they have made progress on pre-FY 2011 T&R
     activities through the following:

            •    Creating a Strategic Capability Assessment database that categorizes Shuttle
                 Program assets and defines capability requirements through the end of the
                 program. The capability assessment defines the last date each capability is
                 needed, facilitating management decisions on whether to retain, transfer, preserve,
                 or dispose of the capabilities.

            •    Tracking major transition milestone schedules that include the Shuttle Program
                 decommissioning review. 14

            •    Managing a single-source supplier list to manage its supplier base through the
                 retirement of the Shuttle Program. NASA uses the list to monitor the unique
                 capabilities provided by suppliers.

            •    Implementing the Space Shuttle Management Resource Transition Document
                 process as a primary tool for ensuring that credible, consistent, and accurate
                 information is provided to management for decision making.


     14
          The Shuttle Program will perform a decommissioning review, planned for August 2010, to confirm the
          decision to terminate or decommission the Program and assess the readiness of the Program to dispose of
          its assets.



14                                                                                        REPORT NO. IG-10-012
RESULTS



Final Planning for Post-Shuttle T&R Activities Delayed

  The Agency decided to delay finalizing plans for managing an estimated $460 million of
  T&R activities in FY 2011 and beyond in order to concentrate on completing the Space
  Shuttle flight manifest. Space Operations Mission Directorate management stated that
  this decision allowed the Shuttle Program’s workforce to focus on the launch schedule
  and the existing T&R organization structure without being distracted by a “parallel”
  organization that Shuttle Program managers thought would distract the workforce and
  potentially affect flight safety. Although NASA senior management has yet to finalize
  the planned post-FY 2010 organization, NASA managers said they expect to implement a
  two-phase plan for the Shuttle Program’s retirement. Phase I (FY 2011 and FY 2012)
  will focus on asset “end-state development,” which is technical work to provide the asset
  in the required condition for disposal. Phase II (FY 2013 through FY 2020) will focus on
  contract closeouts and any remaining asset disposal. During Phase II, the Centers will
  dispose of Shuttle assets using normal NASA and Center procedures.

  Ensuring that the plan for post-FY 2010 T&R activities is approved and formalized prior
  to the Shuttle Program’s retirement is important because many of the critical dispositions
  will occur in FY 2011 and beyond. As of March 2010, the organization and governance
  structure for executing T&R post-FY 2010 was still under development. In addition, the
  charters for both the TCB and JICB expire at the end of FY 2010. Although Shuttle
  Program managers included budget estimates for FYs 2011–2012 T&R activities as part
  of the FY 2011 budget submission process, the exact organizational responsibility for
  disposition of Program property after the last Space Shuttle mission has not yet been
  finalized. In December 2009, we initiated an audit to evaluate the reasonableness of
  Shuttle Program’s cost estimate of T&R activities. Because those estimates were largely
  based on transition to the Constellation Program, which is proposed for cancellation in
  the President’s FY 2011 budget, we have suspended our review until NASA evaluates
  and establishes a new cost estimate.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

  We recommended that the Associate Administrator for Space Operations finalize the
  post-FY 2010 organization structure and plans for T&R activities by July 31, 2010, to
  facilitate effective implementation of the full scope of T&R activities after the last Space
  Shuttle flight.

  Management’s Response. The Associate Administrator for Space Operations concurred
  with the recommendation and stated that the post-FY 2010 organization structure and
  plans should be finalized by July 31, 2010. Specifically, the Associate Administrator
  stated that the Space Shuttle Transition Manager prepared a draft proposal that
  established the Level II Transition Program Office roles, responsibilities, and interfaces;
  describes the management approach and organization structure; and proposes the fulltime


REPORT NO. IG-10-012                                                                             15
                                                                                          RESULTS



     personnel equivalents required to manage the final phases of transition and retirement of
     Space Shuttle assets. According to the Associate Administrator, the Transition Manager
     intends to present this plan to the Transition Control Board in April 2010 and finalize it
     by July 31, 2010. The plan will be included in an update of the National Space
     Transportation System 60576, SSP Transition Management Plan. The estimated
     completion date is September 1, 2010.

     Evaluation of Management’s Response. The Associate Administrator’s response and
     planned actions are responsive to the recommendation. Therefore, the recommendation
     is resolved; however, it will remain open until we review the Agency’s final transition
     plan.




16                                                                          REPORT NO. IG-10-012
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from May 2009 through March 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. We performed our audit work at Johnson Space Center and NASA
  Headquarters.

  To evaluate NASA’s plans for completing the remaining Shuttle flights, completing and
  supporting the ISS, and retiring the Shuttle Program, we reviewed the following Federal
  laws and NASA regulations, policies, and procedures:

      •   “Omnibus Appropriations Act, 2009,” Public Law 111-8, March 11, 2009

      •   “National Aeronautics and Space Administration Authorization Act of 2008,”
          October 2008

      •   “National Aeronautics and Space Administration Authorization Act of 2005,”
          December 2005

      •   NASA’s “Fiscal Year 2011 Budget Estimates,” February 1, 2010

      •   NASA Procedural Requirements (NPR) 7120.5D, “NASA Space Flight Program
          and Project Management Requirements,” March 6, 2007

      •   NPR 7123.1A, “NASA Systems Engineering Processes and Requirements,”
          March 26, 2007, and NASA Interim Directive, November 4, 2008

      •   “NASA Transition Management Plan For Implementing the U.S. Space
          Exploration Policy,” August 2008

      •   National Space Transportation System (NSTS) 60575, “Space Shuttle Program
          Transition and Retirement Environmental Plan,” June 15, 2007

      •   NSTS 60576, “Space Shuttle Program Transition Management Plan,” May 9,
          2007

      •   NSTS 07700, Volume XX, “Space Shuttle Program Transition and Retirement
          Requirements,” February 28, 2007


REPORT NO. IG-10-012                                                                          17
                                                                                      APPENDIX A



     In addition, to gain an overall understanding of NASA’s plans for retiring the Shuttle
     Program, we reviewed the following plans and reports:

        •   “International Space Station Program Plan,” September 22, 2003 (ISS Program
            Office)

        •   “Space Shuttle Program Plan,” May 9, 2008 (Space Shuttle Program Office)

        •   “Program Implementation Review Management Briefing,” July 21, 2008 (Space
            Shuttle Program Office and ISS Program Office)

        •   “Space Shuttle Program Transition and Retirement Personal Property Disposition
            Plan,” November 2008 (Space Shuttle Program Office)

        •   “Extending the Space Shuttle Program Beyond 2010, draft,” February 9, 2009
            (Space Shuttle Program Office)

        •    NASA’s “Aerospace Safety Advisory Panel Report for 2008,” April 15, 2009

        •   NASA’s “Aerospace Safety Advisory Panel Annual Report for 2009,” January 15,
            2010

        •   Congressional Budget Office Report, “The Budgetary Implications of NASA’s
            Current Plans for Space Exploration,” April 2009

        •   NASA’s “Impacts of Suspending Activity before April 30, 2009 That Would
            Preclude Extending Space Shuttle Operations,” April 2009

        •   NASA’s “Report on Costs for Space Shuttle Transition and Retirement Activities
            Pursuant to FY 2009 Omnibus Appropriations Act (P.L. 111-8),” July 6, 2009

     We interviewed the Space Operations Mission Directorate’s Transition Manager and
     Shuttle Program personnel from the Flight Operations and Integration Office, the
     Business Office, and the Management Integration and Planning Office. We also
     interviewed ISS Program personnel from the Program Integration Office, Mission
     Integration and Operations Office, and External Integration Office.

     We analyzed the current and historical flight rates to determine whether the planned
     Shuttle flight schedule is reasonable and achievable. We reviewed NASA’s costs
     incurred for retirement and the estimated costs associated with T&R activities post-2010.
     We also reviewed the Shuttle Program’s FY 2011 budget submission.

     Use of Computer-Processed Data. We did not perform a detailed assessment of the
     reliability of the values and information reported in the Space Shuttle and ISS risk
     databases. We reviewed these databases to determine whether the programs identified
     risks for meeting the current Shuttle flight schedule and whether mitigation strategies


18                                                                         REPORT NO. IG-10-012
APPENDIX A



  were in place to ensure successful completion of the manifest. For ISS risks, we
  reviewed estimated costs for mitigation of the risks, but did not validate those values.
  We used the probability results from the Manifest Assessment Simulation Tool as
  additional support for estimating a schedule completion date. However, we did not
  perform a detailed review on the assumptions incorporated into the tool.


Review of Internal Controls

  We reviewed internal controls for the Shuttle Program’s mission and T&R activities
  related to authority, responsibility, and organization structure; policies and procedures;
  and oversight functions. “NASA Transition Management Plan,” August 2008, defined
  roles and responsibilities and provided for a transition governance structure; however, the
  plan did not address post-FY 2010 Shuttle Program organization and governance
  structure. The recommendation in this report, if implemented, should improve the
  internal controls over the T&R process.


Prior Coverage

  During the last 5 years, the NASA OIG and GAO have issued three reports related to the
  subject of this report. These reports can be found on the Internet at
  http://oig.nasa.gov/audits/reports/FY10/index.html and http://www.gao.gov.

  Office of Inspector General, National Aeronautics and Space Administration

  “NASA’s Plan for Space Shuttle Transition Could Be Improved by Following Project
  Management Guidelines” (IG-07-005, January 29, 2007)

  Government Accountability Office

  “NASA: Agency Faces Challenges Defining Scope and Costs of Space Shuttle Transition
  and Retirement” (GAO-08-1096, September 30, 2008)

  “NASA Supplier Base: Challenges Exist in Transitioning from the Space Shuttle
  Program to the Next Generation of Human Space Flight Systems” (GAO-07-940, July 25,
  2007)




   REPORT NO. IG-10-012                                                                      19
                       APPENDIX B




     MANAGEMENT COMMENTS




20            REPORT NO. IG-10-012
APPENDIX C




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Associate Administrator, Exploration Systems Mission Directorate
  Associate Administrator, Space Operations Mission Directorate
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Director, Marshall Space Flight Center
  Program Manager, Space Shuttle Program
  Program Manager, International Space Station Program
  Associate Manager, Space Shuttle Program

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-10-012                                                           21
Major Contributors to the Report:
   Raymond Tolomeo, Acting Director, Space Operations Directorate
   Loretta Atkinson, Project Manager
   Jim Griggs, Lead Auditor
   Eugene Bauer, Auditor
   Barbara Moody, Auditor
   Doug Orton, Auditor
   Frank Martin, Aerospace Technologist
   Liz Shifflett, Editor




REPORT NO. IG-10-012                                                23
                                                                                      MARCH 25, 2010
                                                                        REPORT No. IG-10-012




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
